<html>
<title> - FUTURE OF SCIENCE</title>
<body><pre>[Senate Hearing 109-294]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-294

                           FUTURE OF SCIENCE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 18, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2006        

25-880 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMint, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 18, 2005................................     1
Statement of Senator Burns.......................................    34
Statement of Senator Hutchison...................................    13
Statement of Senator Smith.......................................    32
Statement of Senator Stevens.....................................     1

                               Witnesses

Agre, Peter, M.D., Vice Chancellor, Science and Technology/
  Professor, Cell Biology and Medicine, Duke University School of 
  Medicine.......................................................     2
    Prepared statement...........................................     6
Cornell, Eric, Ph.D., Senior Scientist, National Institute of 
  Standards and Technology, Technology Administration, Department 
  of Commerce....................................................     9
    Prepared statement...........................................    11
Heath, James, Ph.D., Elizabeth W. Gilloon Professor of Chemistry, 
  California Institute of Technology.............................    14
    Prepared statement...........................................    15
Ting, Samuel C.C., Ph.D., Thomas Dudley Cabot Professor of 
  Physics, Massachusetts Institute of Technology.................    20
    Prepared statement...........................................    22

                                Appendix

Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    37

 
                           FUTURE OF SCIENCE

                              ----------                              


                       FRIDAY, NOVEMBER 18, 2005

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:15 a.m. in 
room SD-562, Dirksen Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. My apologies. It's a strange morning over 
there on the floor, and I'm hopeful that some of our colleagues 
will join us. For the information of our guests and witnesses, 
we've had a little confrontation on the conference report on 
the Patriot Act, and also on being able to get the continuing 
resolution passed, which must be passed today and get to the 
President today. And he happens to be overseas, so it's a very 
interesting problem. But let me thank you all for coming.
    Through the years, we've been amazed by the results of our 
Nation's scientific research. And because of these 
advancements, the United States has been able to capture and 
maintain its leadership position in science and technology. Our 
history clearly demonstrates our reliance on science, and will 
undoubtedly serve as the basis for our future growth and 
success.
    I'm really pleased to be able to discuss research, 
technology, innovation, and education as the pillars of our 
success for the 21st century with these distinguished gentlemen 
who are at the table. Dr. Peter Agre, vice chancellor of 
science and technology, professor of cell biology, professor of 
medicine, at Duke University. Dr. Agre received the 2003 Nobel 
Prize in Chemistry for his discoveries concerning channels in 
cell membranes. Dr. Eric Cornell, senior scientist, National 
Institute of Standards and Technology, Technology 
Administration, U.S. Department of Commerce. Dr. Cornell 
received the 2001 Nobel Prize in Physics for his research 
leading to the landmark 1995 creation of the Bose-Einstein 
condensate and early studies of its properties. Dr. James R. 
Heath, Elizabeth Gilloon professor of chemistry at the 
California Institute of Technology, was named by Scientific 
American as one of the top 50 visionaries for his research in 
fabricating and assembling, utilizing nanocomputers. Dr. Samuel 
C. Ting, Thomas Dudley Cabot professor of physics at MIT. Dr. 
Ting received, in 1976, the Nobel Prize in Physics for his 
discovery of the charmed quark, one of nature's basic building 
blocks.
    I do thank you for coming. I regret that this is the day 
it's happened, when we have so much going on out there that is 
so controversial. And we were in late last night. We left the 
floor last night at midnight. So, I don't know how soon my 
colleagues will join us. I do know, however, that you are on 
national television, and you're not only speaking to us, but 
you're speaking to the country.
    So, I appreciate your coming to testify today. I would hope 
that your comments will lead us to be actionary, rather than 
reactionary, in the fields that you represent. And I not only 
look forward to your testimony, but I look forward to Jim Heath 
joining me for fishing in Alaska again soon. And you're all 
invited sometime.
    So, let me turn first to you, Dr. Agre.

  STATEMENT OF PETER AGRE, M.D., VICE CHANCELLOR, SCIENCE AND 
     TECHNOLOGY/PROFESSOR, CELL BIOLOGY AND MEDICINE, DUKE 
                 UNIVERSITY SCHOOL OF MEDICINE

    Dr. Agre. Good morning, Senator Stevens, staff members, 
guests. It's a pleasure to be here to discuss the future of 
science. And although I have notes, and these are distributed, 
I'd like to make my comments informal.
    The Chairman. Whatever you all want to print in the record, 
we'll print. I'll be delighted to have you make the comments 
that you wish us to hear and understand, and the audience out 
there to understand, too, Doctor.
    Dr. Agre. Yes, sir. Thank you.
    My laboratory was recognized for the discovery of how water 
is organized in biology. Water is often described as the 
solvent of life. Our bodies are about 70 percent water. This is 
shared by all life forms. Without water, there is no life.
    The organized distribution of water is something that goes 
on all of the time. We never think about it. While we're 
sitting here, our brains are being coated with spinal fluid, 
our eyes are being filled with aqueous humor, water is being 
released into tears, sweat, saliva, and bile. Our kidneys are 
concentrating urine. The trees outside are taking up water from 
the ground. It may be surprising at this late state in science 
that the discovery of how water is moved in biological tissues 
is very recent. This emerged from a discovery made in our 
laboratory 14 years ago. And it deals with a family of 
proteins, which we've termed the aquaporins. These are the 
water channel proteins that cause water to enter cells and 
leave cells.
    The discovery, itself, was sheer serendipity. We were 
pursuing another project. But it's now led to potential 
clinical advances. These aquaporins are involved in many 
important disease states. Aquaporin 0 defects cause cataracts. 
Aquaporins 1 and 2 are how our kidneys can concentrate urine. 
And I think anybody who had a Venti Starbucks coffee at the 
station this morning, by the end of this hearing, is going to 
feel a sensation of fullness in his bladder. That's Aquaporin 2 
at work. Aquaporin 3 is important for the integrity of our 
skin. Beauty products are now being marketed, because of the 
induction of this protein. Aquaporin 4, in the brain, is very 
important. Oftentimes, individuals sustaining a stroke or a 
brain tumor die of the brain edema mediated by Aquaporin 4. 
Aquaporin 5 is important in the secretion of sweat, tears, 
saliva, protecting us from corneal abrasions, corneal injuries, 
dental caries, heat prostration. Aquaporin 7 and 9 are involved 
in the defense against starvation and also lead to obesity. 
Aquaporins in plants can be manipulated to increase drought 
tolerance. So, these are all discoveries that have flown from a 
very simple serendipitous observation in a small laboratory.
    You've invited us to share our perspectives, and I thought 
an important perspective of how I got into science is my 
background. I'm a regular American citizen, grew up out in 
Minnesota. My mother and dad were the offspring of Norwegian 
farmers who settled in South Dakota. They did one thing very 
special with my five brothers and sisters and me. They read to 
us every night, from the Bible, from the great books, from 
popular scientific texts.
    Also, my siblings and I all went to public schools out in 
Minnesota. And we were very, very fond of our teachers. They 
played important roles in the community. They were highly 
respected in the community. And they made what is otherwise 
boring textbook information quite interesting by bringing it to 
our lives. On the playground, during the 100-yard dash, we 
would then go back to the classroom to calculate our speed. 
We'd be taken on nature walks, taught optics, how we can create 
heat from light. Of course, as kids, we would sometimes misuse 
this information, using the magnifying glasses to incinerate 
ants or the little electrical circuits to shock each other. 
But, hey, we were kids, and that's science.
    My own career pathway toward science was indirect. I did 
not choose to become a scientist because of scientific 
excitement, per se, but because I wanted to be a medical 
doctor. And as a medical student at Johns Hopkins, I was 
pursuing a research project in a basic science laboratory to 
uncover the basis of infectious diarrhea in the New World, the 
turistas. Not a very attractive disease topic, but one that's 
of great clinical significance. And while working in this lab, 
I had the opportunity of working alongside really exciting 
scientists who came from all over the world. We had Israelis, 
and a Palestinian. We had Chinese and a Filipino. We had an 
anti-Franco Spaniard and a debonair, cosmopolitan Italian. And 
everybody worked together and became the best of friends. We've 
maintained these collegialities ever since.
    Now, that was in a U.S.-taxpayer-funded research 
laboratory. There was no drug development or private money 
involved whatsoever.
    I would like to touch briefly on a few issues related to 
U.S. science.
    First, I'd like to mention that I think the prominence 
which the U.S. science has had for a long time is not 
guaranteed in the future. My own laboratory has been free to 
collaborate with scientists within the U.S., but we have 
oftentimes gone outside of the U.S. in order to collaborate 
with the scientists with the best state-of-the-art 
technologies. We solved the localization of the aquaporin 
proteins in tissues working together with scientists in Norway 
and Denmark. We solved the atomic structure of the molecule, 
working together with scientists from Switzerland and Japan. 
And we did this because they were the best in the world.
    Now, the U.S. Government's funding for science has been 
generous. It also comes with a fair degree of freedom. When an 
individual makes a discovery, he or she can then focus on that 
discovery, explore it further, even though it doesn't conform 
to the original plan. This is not possible in many 
pharmaceutical companies, where business plans dictate what 
individuals can do.
    I fear that restrictions on the freedom to explore new and 
unexpected discoveries may dampen the quality of science in the 
United States.
    I also fear that the funding for science, at this time of 
the huge budget deficit, is in jeopardy. And I'd just like to 
say that the reductions in funding may be cyclical, and we can 
look, maybe 36 months from now, that it will recover. When 
young scientists are coming through their training, they can't 
wait. Oftentimes, they have families to support. They need to 
get funded and get going. And the young scientists--young 
scientists, under age 40--are the sources of our best and 
freshest ideas.
    I think this is particularly true for scientists trained in 
clinical medicine, who often will spend up to 10 years getting 
clinical training, in addition to the science. They're at a 
point in their careers where they must either get funded or 
they'll be forced into strictly clinical activities where 
they'll make no basic discoveries. And these are the 
discoveries that come quickly to the patient's bedside.
    Another issue I'd like to just introduce is the dependence 
of the U.S. on non-U.S. scientists. Much of the outstanding 
research in the United States for the last decade has been done 
by scientists who have come here from overseas. These 
individuals don't just work in laboratories in low-brow 
positions. They oftentimes rise to the very top of American 
bioscience. Elias Zerhouni came here from Algeria. He's now the 
director of the National Institutes of Health. My boss, Victor 
Dzau, born in Shanghai, is now the chancellor for the Duke 
Health System. Chi Dang came from Vietnam, is vice chancellor 
for research at Johns Hopkins. Pedro Cuatrecasas, with whom I 
worked as a student, came here from Colombia, South America, 
became the vice president of Parke-Davis Pharmaceuticals.
    The entry of non-U.S. scientists is now declining, and 
there are multiple reasons--visa restrictions and the like. 
There is also, I fear, a factor that is not widely recognized 
in the United States, and that's how the United States, on rare 
occasions, like other countries in the world, mistreats 
scientists. In the news, just recently, there was a re-analysis 
of the case of Wen Ho Lee, a Taiwanese-born computer scientist 
suspected of spying for the People's Republic of China, was 
held in solitary confinement for 1 year, shackled hand to foot, 
threatened repeatedly with execution if he did not confess. 
Independent review of the charges resulted in a dropping of the 
charges. This occurred during Janet Reno's tenure as Attorney 
General of the United States.
    Most recently, Thomas Butler, a very well known infectious-
disease expert, was arrested from his laboratory in Texas Tech 
University when plague bacillus samples disappeared from his 
lab. When the FBI investigated, suspecting bioterror, they 
found no evidence of this. But Butler was hounded and charged 
with 69 federal felony charges, eventually cleared of all 
serious issues related to bioterrorism, but convicted on some 
minor issues related to the budget use in Africa. He's now in 
prison in Texas.
    The word of these individuals' fates, I think, is widely 
recognized. The colleagues of these individuals, outside of the 
U.S., I think are concerned with the atmosphere and the 
attitudes toward American scientists.
    I'd like to touch just briefly on a couple of more issues.
    The visibility of scientists in U.S. society is something I 
worry about. Our founding fathers included scientists. Benjamin 
Franklin, Thomas Jefferson, Benjamin Rush. Even during my 
childhood, we were able to see scientists on the network, on 
the wonderful Disney show. And I think probably some people 
here in the audience that are my age may remember these shows. 
Wernher von Braun talked to the children about rocketry. Nobel 
Laureate Glenn Seaborg discussed the chemical chain reaction 
with a demonstration so vibrant, anybody who saw that show will 
never forget it. He had a mousetrap with a pingpong ball. The 
trap goes off, the ball flies. Then he took us--took the 
cameras in a room where the floor was covered with mousetraps 
and pingpong balls. He threw a ball over his shoulder, suddenly 
two balls were in the air, four balls in the air, and, within 
seconds, the entire room was a cloud of pingpong balls and 
mousetraps flying.
    The visibility, I think, is very important to raise the 
awareness of the American public toward the values of science. 
And some of the trends that we see now in the popular media are 
very concerning.
    Four hundred years after the time of Galileo, 20 percent of 
Americans still believe that the sun revolves around the Earth. 
I'm told that half of Americans believe cavemen and dinosaurs 
coexisted, apparently because they saw it on the Flintstones. 
Our schoolchildren consistently are behind children from East 
Asia in science and math, and behind the schoolchildren from 
Eastern Europe. I think this has something to do with the 
general anti-intellectual climate in the United States and the 
failure of half of American citizenry to read a single book in 
a given year.
    So, I'd like to close with just a few final words.
    Louis Pasteur said that, ``Chance favors the prepared 
mind.'' Having been raised in the post-Sputnik era myself, I 
feel fortunate to have benefited from a high-quality public-
school education, and, subsequently, as a researcher funded 
entirely by the U.S. taxpayer. There are a few words that I'll 
read from the end of the Nobel banquet speech that I gave in 
Stockholm 2 years ago. And in this, I say, ``Our single 
greatest defense against scientific ignorance is education. And 
early in the life of every scientist, the child's first 
interest was sparked by a teacher.'' Then I enjoined the 
audience to, ``Join me in applauding the individuals that 
foster the scientific competence of our society and are the 
heroes behind past, present, and future Nobel Prizes, the men 
and women who teach science to children in our schools.''
    Thank you.
    [The prepared statement of Dr. Agre follows:]

 Prepared Statement of Peter Agre, M.D., Vice Chancellor, Science and 
Technology/Professor, Cell Biology and Medicine, Duke University School 
                              of Medicine
    Senator Stevens, Senator Inouye, and other Members of the 
Committee:
I. My Life in Science.
    It is my pleasure to appear before you and speculate on the future 
of science. I admit to having no crystal ball, but I am here to give my 
predictive powers a workout. First, as requested, I will tell you about 
my own research.
A. Biological Water Channels--the Aquaporins.
    Water is often described as the ``solvent of life,'' since it has 
long been known to be the major component of the human body. About 70 
percent of our body mass is water, and the same is true of all other 
life forms. Without water there is no life.
    The organized distribution of water within and between body 
compartments is essential to our well-being. While you are listening to 
me speak, each of you is bathing the surface of your brains with spinal 
fluid, secreting tears to protect the surface of the orbits of your 
eyes that are filled with aqueous humor. You will be releasing water in 
your exhaled breath, sweat, saliva and digestive juices. Your kidneys 
will be concentrating urine. At the same time, the trees outside will 
be absorbing water from the soil and releasing it from their leaves. 
Despite major advances in molecular biology, the mechanism by which 
water enters and leaves cells was a long-unanswered problem in biology.
    All of these processes involve a simple cellular plumbing system 
that is conserved throughout nature and is made from a family of 
proteins referred to as ``Aquaporins.'' These proteins were a 
serendipitous discovery made in my laboratory 14 years ago while we 
were pursuing research of an entirely unrelated project. We now have 
greatly increased understanding of fundamental processes in physiology, 
and we anticipate that this knowledge will in the future allow us to 
prevent or treat a host of clinical problems.
B. Clinical and Physical Significance of Aquaporins.
    AQP1 is responsible for a blood antigen incompatibility and water 
permeation through capillaries; defects in AQP0 result in cataracts; 
AQP2 is responsible for excessive renal concentration which underlies 
fluid retention in heart failure and pregnancy as well as defective 
concentration in bedwetting. AQP3 is known to enhance the integrity of 
our skin and is the focus of anti-aging skin products. AQP4 mediates 
the deleterious brain edema following strokes and head injuries and 
appears to prevent or ameliorate epileptic seizures. AQP5 is essential 
for normal function of our secretory glands protecting us from corneal 
injury, dental caries, and heat prostration. AQP7 is implicated in 
obesity and AQP9 is involved in the insulin-deficient and insulin-
resistant forms of diabetes as well as the liver damage from arsenic 
poisoning. Plant aquaporins may be manipulated to increase crop 
tolerance to drought, and microbial aquaporins may be future targets of 
antibiotics. While our original discovery was initially a total 
surprise, we now look eagerly to accomplishing exciting new 
applications.
C. Future of Science as Predicted from my Experience.
    In order to speculate about the future, I will need to revisit my 
own past. I have to tell you that I think my childhood was a wonderful 
preparation for a future in science.
1. Early Education.
    Not to be underestimated is the importance of the human side of 
science. As my family and friends could tell you, I am a regular person 
from an unexceptional background. My parents were the offspring of 
Norwegian farming families from South Dakota. My mother never went to 
college, but my Father was able to study at the U of Minnesota and 
taught chemistry at St. Olaf and Augsburg Colleges--small liberal arts 
schools in Minnesota. Fortunately for my five siblings and me, our 
parents read to us every night from the Bible as well as the books of 
Laura Ingalls Wilder, Lewis Carroll, and Robert Louis Stevenson. I 
believe this provided the literary background helpful for any career.
    My siblings and I attended public schools, and our teachers were 
highly respected members of the community. Growing up in the late 1950s 
and early 1960s, I certainly benefited from the post-sputnik emphasis 
on science in the classroom. Although children often find textbook math 
and science to be dull, our teachers brought the lessons to life: by 
doing practical calculations such as our speed in a 100 yard dash; by 
taking us on nature walks; by performing simple hands-on scientific 
demonstrations. We loved optics but sometimes used the magnifying 
glasses for unintended purposes, such as incinerating ants on the 
sidewalk, We were fascinated by building simple electrical circuits, 
even though we sometimes used them to shock each other. Our excuse was 
always ``But hey, it's science!''
2. Career Pathway.
    I actually did not intend to pursue a career in pure science but 
studied science because I wanted to become a physician. I was a medical 
student when I really became excited about science while working on a 
research project to identify the cause of infectious diarrhea--often 
referred to as the ``la Turistas.'' In a lab at Johns Hopkins that was 
entirely funded by U.S. taxpayer support, I worked alongside an 
exciting and colorful international cohort of scientists--including 
Israelis and a Palestinian, Chinese and a Filipino, an anti-Francoist 
Spaniard and a debonair Italian. Despite the different cultures we 
became the best of friends and have remained colleagues ever since.
    Determined to combine clinical care and medical research, I was 
fortunate to receive an early NIH grant for clinical investigators that 
allowed me to work in a lab to gain the experience needed to succeed at 
science. I do not wish to underplay the difficulty though, and my 
family always encouraged me, even though it meant forgoing a 
potentially lucrative medical practice, to pursue my dream. I was 
optimistic despite the financial compromise, the absence of a promised 
faculty position, and the total lack of certainty that I would ever 
succeed.
II. Issues Related to U.S. Science.
    Due to the longstanding generosity of the American Taxpayer and the 
wisdom of both of our national political parties, the United States has 
been the world's leading scientific presence for as long as I can 
remember. Unfortunately, I am not completely optimistic about the 
future, and I greatly fear that we will be overtaken by other 
countries.
A. Prominence of U.S. Science.
    My laboratory has always had complete freedom to collaborate with 
the best scientists in the U.S. Nevertheless, you may be surprised to 
learn that it was our collaborations with scientists in Europe and 
Japan that led us quickly in new directions that were not feasible here 
in the U.S. For example, our high resolution immuno-electron microscopy 
studies were undertaken in collaboration with investigators in Denmark 
and Norway. The atomic structure of the aquaporin protein was solved by 
membrane crystallographic studies with scientists in Switzerland and 
Japan. We collaborated overseas simply because these scientists were 
the best in the world in the highly specialized techniques.
B. U.S. Government Funding of Science.
    My own career was entirely supported by research funds from the 
U.S. taxpayers in the form of NIH grants. In my own case, the research 
funding provided an opportunity to pursue science by following 
discoveries--even when they did not conform to the original plan. If I 
were a scientist in a traditional industrial laboratory, I would never 
have had the flexibility to discover and further explore the aquaporin 
water channels, because this project did not fit into the company's 
primary objectives. I worry that U.S. Government funding for scientific 
research may some day come with absolute restrictions that prevent 
change of focus when unexpected discoveries appear.
    I also worry that U.S. Government funding for scientific research 
will be reduced at this time of a huge federal budget deficit. 
Unfortunately, failure to provide steady research funding will be most 
severely experienced by the newly trained scientists who are beginning 
their independent research programs. These young scientists are our 
richest source of fresh ideas, but they can least afford to wait for 
funding.
    This is particularly true of younger physician scientists who have 
spent up to 10 years in clinical training before they can become 
independent scientists. While veteran scientists may survive intervals 
without funding, younger scientists with families are often forced to 
choose strictly clinical jobs that will never allow them to make 
important breakthroughs in biomedical science. When they quit research, 
they quit forever. This is most unfortunate, since these are the same 
individuals with insight that will allow basic scientific discoveries 
to rapidly be applied at the patient's bedside.
C. Dependence on Non-U.S. Scientists and the Mistreatment of 
        Scientists.
    Much outstanding research undertaken in U.S. laboratories is 
performed by scientists that came here from other countries. For 
reasons including increased restrictions on visas for scientists who 
wish to work and study in the U.S., the number of graduate students and 
scientists coming here is now declining. A rare but highly damaging 
issue has resulted from the mistreatment of scientists by governments. 
As Chair of the Committee on Human Rights of the National Academies of 
Science, I am familiar with cases from around the world including two 
devastating cases in the U.S.
    Taiwanese-American scientist Wen Ho Lee was publicly referred to as 
``Spy of the Century'' while shackled hand to foot for a year in 
solitary confinement. Dr. Lee was threatened repeatedly with execution 
if he did not confess to being a spy for the Peoples Republic of China. 
An independent review of the charges eventually brought his release 
with an apology in September 2000, but our standing with East Asian 
students has not been restored. http://www4.nationalacademies.org/
news.nsf/isbn/s08312000?OpenDocument.
    During the hysteria following the 2001 anthrax killings, a 
dedicated infectious disease specialist, Professor Thomas C. Butler, 
was arrested and charged with multiple federal felony counts when 
plague bacillus samples disappeared from his laboratory at Texas Tech 
University Health Sciences Center. Dr. Butler's work was entirely 
humanitarian, and no evidence of bioterrorism has ever been uncovered. 
Highly respected by his peers in the U.S. and admired by his colleagues 
in developing countries, Dr. Butler was hounded by the U.S. Department 
of Justice. While cleared of all charges related to bioterrorism, a 
conviction was obtained on confusing technical charges indirectly 
related to Butler's research budgets. Butler is now serving a two-year 
prison sentence while his appeal is pending. http://www.fas.org/butler/
D. Visibility of Scientists in U.S. Society.
    The disappearance of scientists from public life is a concern. 
Interestingly, several of our Nation's founders included individuals 
who were leaders in science--Benjamin Rush [chemistry and medical 
biology], Thomas Jefferson [agricultural science], and Benjamin 
Franklin [electricity].
    During my childhood, we would see scientists on the extremely 
popular Disney television program. Familiar to us was Wernher von Braun 
who demonstrated rocketry. Nobel Laureate Glenn Seaborg demonstrated 
the concept of a chemical chain reaction with mouse traps and ping-pong 
balls during a truly unforgettable program. At that time, Nobel 
Laureate Linus Pauling was widely recognized for his public efforts 
that launched the Limited Test Ban Treaty that still protects us from 
radioactive fallout in the atmosphere. Nobel Laureate Richard Feynman's 
books were popular reading.
E. Declining Scientific Awareness by U.S. Public.
    A final and major concern relates to the decreasing level of 
scientific understanding by the U.S. public. I challenge the Members of 
this Senate Committee to ask your constituents to name even a single 
contemporary American scientist. But let me place some of the blame 
upon myself and my scientific colleagues. Except when challenged for 
negative reasons, we often consider ourselves too busy to engage in 
activities that may enlighten the rest of our society.
    Widespread scientific ignorance significantly discourages young 
Americans from pursuing science. In my view, the need to educate our 
non-scientist citizens is just as important as the need to encourage 
future scientists. Recent controversies about the teaching evolution in 
high school biology appears to be a thinly disguised attempt by a 
minority to establish their particular religious viewpoint in publicly 
funded education.
    Several parameters reflecting a decline in the national level of 
science understanding by the American public are apparent. Four hundred 
years after Galileo, one in five Americans still believes the sun 
rotates around the earth. Half of all Americans believe dinosaurs and 
humans coexisted in prehistory--apparently because they saw it on the 
Flintstones. U.S. school children consistently score below their 
counterparts in East Asia and often score below children in Eastern 
Europe. This must have something to do with the failure of more than 
half of all U.S. adults to read a single book [any book] in a given 
year.
III. Final Word--Nobel Banquet Speech.
    Louis Pasteur said that ``Chance favors the prepared mind.'' Having 
been raised in the post-sputnik era, I feel fortunate to have benefited 
from a high quality public school education and subsequently as a 
researcher funded entirely by the U.S. taxpayer. In closing I will 
share with you words from my Nobel Banquet Speech from two years ago.

        . . . in the 21st century, the boundaries separating chemistry, 
        physics, and medicine have become blurred, and as happened 
        during the Renaissance, scientists are following their 
        curiosities even when they run beyond the formal limits of 
        their training.

        The need for general scientific understanding by the public has 
        never been larger, and the penalty for scientific illiteracy 
        never harsher . . . Lack of scientific fundamentals causes 
        people to make foolish decisions about issues such as the 
        toxicity of chemicals, the efficacy of medicines, the changes 
        in the global climate. Our single greatest defense against 
        scientific ignorance is education, and early in the life of 
        every scientist, the child's first interest was sparked by a 
        teacher.

        Ladies and Gentlemen: please join me in applauding the 
        individuals that foster the scientific competence of our 
        society and are the heroes behind past, present, and future 
        Nobel Prizes--the men and women who teach science to children 
        in our schools.

    Thank you.

    The Chairman. Thank you, Doctor. I just wish more of my 
colleagues were here to hear that.
    Dr. Cornell?

      STATEMENT OF ERIC CORNELL, Ph.D., SENIOR SCIENTIST, 
  NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY, TECHNOLOGY 
                 ADMINISTRATION, DEPARTMENT OF 
                            COMMERCE

    Dr. Cornell. Chairman Stevens and Members of the Committee, 
allow me briefly to introduce myself. My name is Eric Cornell. 
I work for the National Institute of Standards and Technology, 
NIST, in the Department of Commerce.
    The Chairman. Could you pull the mike up just a little bit, 
please? Thank you. Did you press the button?
    Dr. Cornell. It's lit up. Is that a good sign? All right, 
good.
    In 1992, I set out, at NIST, to make the world's coldest 
gas. I won't use the Committee's time to ramble on about my 
favorite topic, which is the physics of the ultracold. Suffice 
it to say that when you chill a gas down to within a millionth 
of a degree above absolute zero, the atoms in the gas all merge 
together to form one super-atom, which is called a Bose-
Einstein condensate, a new state of matter. And it was for this 
achievement that I shared in winning the 2001 Nobel Prize.
    What has Bose-Einstein condensation been good for? One 
example is that it is being used in an effort to develop a new 
generation of sensitive accelerometers to be used for remote 
sensing and for navigation by dead reckoning, as they do in 
nuclear submarines. In the long run, Bose-Einstein condensation 
is likely to be more important because of its role as a 
scientific building block, as a tool to help us understand and 
tame quantum mechanics. There are many examples of how taming 
quantum mechanics may make a big difference to our country in 
the coming couple decades. We'll probably hear a little bit 
about nanotechnology from Dr. Heath, but I'll tell you about 
one idea, called quantum computing.
    Quantum computing is one of the most amazing concepts, in 
my opinion, to come out of the 1990s. Inside a computer, there 
are millions of tiny switches, called bits, that can be either 
on or off, one or zero, and these bits are the memory of the 
computer, and the bits are what a computer uses to make 
calculations. A quantum computer would have quantum bits. And 
the magic of a quantum bit is that, unlike a conventional bit, 
it can be simultaneously both on and off, both one and zero. 
It's a little spooky how that happens, and I'm not going to get 
into the math.
    The power of this possibility comes in when you start 
stringing many quantum bits together with 60--if you add 60 
ordinary computer bits all in a row, 60 ones and zeros, you 
could represent any number between one and about a quadrillion. 
With 60 quantum bits in a row, with each bit being both on and 
off at the same time, you can simultaneously represent every 
number between one and a quadrillion.
    Why would you want to do that? A computational problem 
which is extremely important to our national security and our 
economy is this problem of breaking very, very large numbers up 
into their prime factors. Prime factor is at the heart of 
modern cryptography, and modern cryptography makes possible 
secure military and diplomatic communications, and is--also 
secure electronic transactions that are at the heart of our 
banking and finance systems. If the system of cryptography is 
threatened, it could cripple our economy in days or hours.
    So, here's where the quantum computing comes in. Suppose 
you're a cryptographer and you want to know, for code-breaking 
reasons, the two numbers that multiply together to make up some 
very large number near one quadrillion. You want to know its 
prime factors. One way you could do that is take every number 
from one to a quadrillion and try and divide it into your huge 
number; and the ones that go evenly, those are the prime 
factors. But even for a very, very fast computer, a modern 
supercomputer, it takes a long time to do one-quadrillion 
divisions. That's why codes are secure. But imagine, instead, 
that you had a quantum computer, and you had quantum bits. What 
you do is, you take your 60 quantum bits, which simultaneously 
represent every number between one and quadrillion, and you use 
your quantum computer to divide your quantum number into this 
huge number you are trying to factor. In a single computational 
process, you can find out which of those quadrillion numbers 
divide in evenly; and so, you can find the prime factors of 
your huge number maybe billions of times--billions of times 
faster than you might be able to with a conventional computer, 
even a really fast one. The implications for secure 
communications and secure economic transactions are profound.
    In biotechnology, quantum computing could find applications 
to really tough computing problems, like solving the problem of 
protein-folding in order to design a new generation of 
pharmaceuticals.
    None of this is going to happen next week. We have no 
working quantum computer now. And don't count on there being 
one even in Fiscal Year 2007. The scientific and technical 
challenges associated with constructing quantum bits and 
stringing them together into an integrated quantum computer are 
immense. But I think we really need to try.
    And why is it important that the U.S. conduct this and 
related research into quantum mechanics? As with any really 
cool problem, human nature dictates that there will always be 
curious people trying to come up with a solution, and quantum 
physics is no different. Teams from around the globe are laying 
the foundation for quantum computing now. If the U.S. heads for 
the sidelines, then we will watch others make profound 
discoveries that will ultimately improve the competitiveness of 
their industries and their quality of life.
    I wish I could tell you what will be the big new industry 
of 2020. And, with respect, Senator, if I knew what would be 
the big new industry of 2020, instead of testifying here, I'd 
be starting my own quantum--my own venture-capital firm. I 
don't know what it's going to be. No one knows what's going to 
be the big new industrial idea of 2020. And that is why 
scientific research and discovery is so important. Without 
knowing for sure what the next big thing will be, we can remain 
cautiously optimistic that the next big thing, whatever it is, 
will be an American thing.
    We could be optimistic, because over the last 50 years, as 
the American economy has benefited from many cycles of 
technology that emerges and subsides, one thing that hasn't 
changed has been America's lead in science/technology. But we 
have to be cautious, because, while our lead in science has 
remained in place for 50 years, the next 50 years are no sure 
thing. I think we should try and protect our lead.
    And I thank you, Senator, for allowing me to testify before 
you today, and I'll be happy to take questions later on.
    [The prepared statement of Dr. Cornell follows:]

 Prepared Statement of Eric Cornell, Ph.D., Senior Scientist, National 
   Institute of Standards and Technology, Technology Administration, 
                         Department of Commerce
    Chairman Stevens and Members of the Committee, please allow me to 
briefly introduce myself and my research. My name is Eric Cornell and I 
was hired by the National Institute of Standards and Technology (NIST) 
in 1992 to do research in quantum optics. Management at NIST encouraged 
me to pursue a high-risk research program at the cutting edge of modern 
physics. I set out to make the World's Coldest Gas, building on 
techniques developed by my fellow NIST scientists, Drs. Jan Hall and 
Bill Phillips (who are both now also winners of the Nobel Prize in 
Physics).
    Why would we want to make the World's Coldest Gas? There were 
several reasons. It turns out that cold gases are a useful environment 
for making extremely precise measurements, which is a capability at the 
heart of NIST's standards mission. Perhaps more important to me 
personally was that I knew that often times you can do the most 
exciting science if you can work right at the boundary of a current 
technological frontier, and one of science's key frontiers is the 
frontier of very low temperature. Every time we've been able to reach 
new heights (really ``depths'') in low temperature, exciting physics 
has followed.
    I won't use the Committee's time to ramble on about my favorite 
topic, the physics of extreme low temperatures, but I will tell you 
that when a gas, made of atoms, gets colder and colder, those atoms, 
sure, move slower and slower. But there are also more subtle changes. 
For one thing, at room temperature, atoms act like little billiard 
balls, bouncing off the walls and off each other. But close to the very 
lowest possible temperatures, (known as ``absolute zero'') atoms stop 
acting like little balls and start acting instead like little waves. 
And at the VERY lowest temperatures, within a millionth of a degree of 
absolute zero, the atoms all merge together to form one super-atom-
wave, a new state of matter called a Bose-Einstein condensate (BEC). 
Predicted by Albert Einstein back in 1925, the Bose-Einstein condensate 
had never been achieved until we finally found it at NIST in 1995. It 
was for this achievement that I shared (with my colleague from 
University of Colorado, Carl Wieman and with Wolfgang Ketterle) the 
2001 Nobel Prize in physics.
    Where has Bose-Einstein condensation led us, in the 10 years since 
we first created it? What, in particular has it been good for? BEC has 
found several direct applications, and in particular we and other 
research groups around the country are trying to develop precision 
accelerometers, gravitometers, and gyroscopes, to be used for remote 
sensing and navigation by dead reckoning. In the long run, BEC is 
likely to be still more important because of its role as a scientific 
building block, a tool to help us understand and tame quantum 
mechanics, and to put quantum mechanics to use on problems with 
relevance to our economy, our health, and our national security.
    Let me share with you two examples of how the taming of quantum 
mechanics may make a big difference to our country in the coming two 
decades. The first is quantum computing.
    Quantum computing is one of the most amazing concepts to come out 
of the 1990s. What puts the ``quantum'' in quantum computing is so-
called ``quantum bits.'' In an ordinary computer, there are millions of 
tiny switches, called bits, that can be either on or off, one or zero. 
The bits are the memory of the computer, and the bits are what a 
computer uses to make calculations. A ``quantum bit,'' or ``qbit,'' 
transcends the traditional requirement that a bit be either ``on'' or 
``off.'' A qbit instead can simultaneously be in a combination of 
``on'' or ``off.'' The power of this possibility comes in when you 
start stringing many qbits together. With ten bits in a row, with 
different combinations of ``ones'' or ``zeros,'' you can represent any 
number between zero and 1023. With ten quantum bits in a row, each in a 
superposition of one and zero, you can simultaneously represent every 
number between one and a thousand.
    Why would one want to do that? We can take as an example a 
computational problem which is extremely important to our national 
security and our economy--breaking large numbers up into their prime 
factors. Prime factors are at the heart of our cryptography systems, 
which allow for secure military and diplomatic communications, but also 
are at the heart of our banking and finance system. Businesses, banks, 
and increasingly ordinary consumers do not send cash or even checks for 
transactions--they send encrypted ones and zeros. If this system of 
cryptography is threatened, it could cripple our economy in days or 
hours.
    Here is where quantum computing comes in. Suppose you want to find 
out what are the factors of 999,997. One way you could do that is to 
take every number from one to a thousand, and try to divide it into 
999,997. The ones that go in evenly, those are the prime factors! Even 
for a modern computer, it takes a while to do one thousand divisions. 
Suppose instead your computer is made of quantum bits. What you can do 
is take your ten quantum bits, which simultaneously represent every 
number between one and a thousand, and try to divide that number into 
999,997. In one single mathematical operation, you can find out if any 
of those numbers divide in evenly, and so you can find out if 999,997 
is a prime number with one single operation instead of having to do one 
thousand of them.
    For cryptography, you don't care about numbers like 999,997--you 
care about numbers that are a trillion trillion times larger, and what 
are the prime factors of those numbers. Using a quantum computer, you 
could answer that question in principle a trillion times faster than 
you can with an ordinary computer, even a so-called ``super-computer.'' 
The implications for secure communications and economic transactions 
are profound.
    There are other extremely difficult problems in computing, problems 
which are too hard for even the fastest modern computers to solve. One 
of these is the problem of protein folding, the way in which chains of 
amino acids bundle in on one another to form the parts that make up 
living biological cell. If this folding goes wrong, you get mad cow 
disease. The flip side is if you can learn to control and predict 
protein folding, you have a very powerful tool for designing the next 
generation of drugs. This is the sort of problem that a breakthrough in 
quantum computing could hugely impact, again by allowing one to do 
trillions of calculations all at once.
    None of this is going to happen tomorrow. What I have left out of 
this whirlwind, geewhiz presentation of the potential of quantum 
computing is that there is no working quantum computer now, and don't 
count on there being one in 2006, either! The scientific and technical 
challenges associated with constructing quantum bits, and stringing 
them together into an integrated computer, are immense. In a modern 
conventional computer, there are literally billions of zero-one bits. A 
modern quantum computer would be so much more powerful than a 
conventional computer that it would not need billions of quantum bits 
in order to do amazing things. But it would need thousands of quantum 
bits. Currently the best experimental quantum computing teams are able 
to string together about four, maybe six quantum bits. Still, my own 
opinion is that quantum computing is such a powerful idea, it really 
must be explored.
    Nanotechnology is a second important area that will benefit from 
the taming of quantum mechanics. I will leave the discussion of why 
nanotechnology is important for Dr. Heath's testimony.
    So why is it important that the U.S. conduct this research? As with 
any problem, human nature dictates that there will always be curious 
people trying to come up with a solution. Quantum physics is no 
different. Teams from around the globe are conducting research trying 
to solve the riddle of quantum computing. If the U.S. stays on the 
sidelines, then we will watch others make profound discoveries that 
will ultimately improve the competitiveness of their industries and 
quality of life. The big question is what is going to be the big new 
industry of 2020? If I knew the answer, I would not be here in front of 
you testifying--I'd be off setting up my own high-tech venture capital 
company instead. No one knows the answer for sure, that is why 
scientific research and discovery is so important. Without knowing for 
sure what the next big thing will be, we can remain cautiously 
optimistic that that big thing will be an American thing. The reason 
for optimism is that, over the last 50 years, as the American economy 
has benefited from many cycles of emerging technology, the one big 
thing that hasn't changed has been America's lead in science research. 
The reason for caution is that, while our lead has remained in place 
for 50 years, it need not remain for another 50. It needs to be 
nurtured!
    I would like to thank the Committee once again for allowing me to 
testify before you today. I will be happy to answer any questions.

    The Chairman. Thank you.
    We've been joined by Senator Hutchison. Do you wish to make 
any comment today, Kay?

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Let me say thank you. Thank you for 
holding this hearing. I am Chairman of the Space and Science 
Subcommittee of this Committee, and I have been very concerned 
that we are not doing enough in our basic education, K through 
12, to assure that we have the prepared great minds for our 
universities to go into science, engineering, and also be the 
leaders in this field in the future. We are, I think, wise to 
take a very careful look at our situation and not think that 
because we're America, we will always be the best, because 
there are many other countries that are now putting more 
investment into education and into research. And I have been 
very active in promoting research in my state with our members 
of our National Academies of Science, Engineering, and the 
Institute of Medicine.
    So, I welcome this. I intend, in my Subcommittee, to start 
looking at the National Science Foundation and what they are 
doing, and how we can make sure that they have the resources 
they need to go forward in the future and not only prepare our 
students, but direct the research that must be done for us to 
stay in the forefront. And I think what we have done with NIH, 
doubling the research capabilities of NIH, was a good thing 
that Congress did. And I think we need to start looking at the 
National Science Foundation for a real upgrade in their 
resources that we give them.
    So, I thank you for coming and testifying. I intend to look 
at the record. I was a little late, but I intend to look at 
your statements, and welcome hearing from you and learning 
everything that you can tell us about what we can do to prepare 
our students and maintain our superiority in research in our 
institutions of higher education.
    Thank you.
    The Chairman. Thank you. It's nice to see you here.
    Our next witness is Dr. James Heath, from the California 
Institute of Technology.

STATEMENT OF JAMES HEATH, Ph.D., ELIZABETH W. GILLOON PROFESSOR 
        OF CHEMISTRY, CALIFORNIA INSTITUTE OF TECHNOLOGY

    Dr. Heath. Senator Stevens and Senator Hutchison, it's a 
pleasure to be here today to give you my thoughts on the future 
of science with some perspectives of my own research.
    For nearly a century now, the U.S. has been in the lead in 
developing science and technology. And we've done that by 
choosing hard problems, funding fundamental science at a level 
that lets us develop and nurture to build a foundation for 
technologies, and then by getting out of the way and letting 
free enterprise take over when the time is right.
    A case in point is the National Nanotechnology Initiative, 
which has received significant support over the past several 
years from Congress. The NNI took a fledgling, but very 
promising, field and provided the resources to develop the 
foundation of that field.
    That investment will definitely pay off. Though nanotech is 
now impacting industries ranging from information technology to 
healthcare, that impact will dramatically increase over the 
next several years. And I believe the U.S. will be in the lead 
in most areas, largely because of this NNI initiative.
    It takes time. I can tell you, from my own research, one of 
the early discoveries in nanotech was something I did in my 
thesis work, the discovery of C60 and the fullerenes, which 
then led to things like carbon nanotubes, which led, then, to 
things like nanowires, et cetera. And if you look now, it's 
just the very early stage. Commercial ventures are beginning to 
come out of that. And that's about a 20-year timeline. Even 
with all of our resources and technology infrastructure, it's 
hard to beat that timeline.
    As I look into the future, there are a number of major 
scientific challenges that are looming. But I believe at the 
head of that list is energy. And this is because energy 
consumption is the only consumable that directly tracks 
standard of living. The global energy consumption at the moment 
is in excess of 200 million barrels of oil per day, and that 
demand will likely double by 2050. Where is that energy going 
to come from? I don't think we have a solution through fossil 
fuels. And so, we'll have to look at alternative energy 
sources.
    My mentor, the late Nobel Laureate Rick Smalley, called 
this the ``terawatt problem.'' One terawatt equals 15 million 
barrels of oil. And what Rick meant was that any pathway that 
we take has to yield large energy dividends to be worthwhile.
    I, personally, believe that solar energy is the only viable 
long-term solution. For example, 175,000 terawatts of solar 
energy impinge upon the Earth every day, and we need to collect 
about .03 percent of that to solve the problem by 2050.
    However, this obviously has many other pathways, many other 
alternative energy sources. But, regardless of which pathway, 
or pathways, we take, the fundamental scientific challenges 
behind collecting, storing, and distributing energy are pretty 
tough. Scientifically speaking, there's no low apples on this 
tree. Even if Congress decided to act now, U.S. scientists and 
engineers are going to have their work cut out for them if 
they're going to solve this problem in time.
    A second closely related challenge that we face involves 
getting our children engaged in science. And I'm going to echo 
my colleagues and Senator Hutchison's comments here. The World 
War II and Sputnik generations of American scientists largely 
developed the foundation of many of the things that are in our 
U.S. economy today, such as our biomedical industry, chemical 
industries, information technologies. The nanotech and biotech 
revolutions, which are happening now, are largely being 
developed on the shoulders of people that come here to get 
their Ph.D.s for graduate school.
    As my colleague and--a well known nanotechnology researcher 
at Hewlett-Packard, Stan Williams, states, everybody in his lab 
over 40 years is American-born; everybody under 40 is Asian-
born. China, in particular, has constructed several state-of-
the-art universities, and they're continuing to do so. And they 
are currently producing many more scientists and engineers than 
we are. Asian countries, in general, are increasingly able to 
attract back their scientists and engineers by providing them 
with attractive laboratories, attractive resources, and 
exciting opportunities. In addition, the need of the Asian 
countries to meet the terawatt challenge is becoming 
increasingly acute, and necessity is the mother of invention.
    If the U.S. is to maintain this competitive advantage as we 
move toward solving the technical problems of the 21st century, 
we have to take bold steps now to solve the underlying 
scientific and engineering challenges, and we also have to take 
steps to encouraging our children to take part in this future 
by becoming basically the developers of the future and taking 
fields in science and engineering.
    Thank you.
    [The prepared statement of Dr. Heath follows:]

    Prepared Statement of James Heath, Ph.D., Elizabeth W. Gilloon 
       Professor of Chemistry, California Institute of Technology
    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to give my thoughts on the future of science with 
perspectives from my own research. For nearly a century now the U.S. 
has provided scientific leadership to the rest of the world. We have 
done this as a Nation by taking bold steps to develop the scientific 
foundations in new areas, by sticking with the task until it was ripe 
for commercialization, and then by getting out of the way and letting 
free enterprise take over. A case in point is the National 
Nanotechnology Initiative (NNI), which has received strong and 
continuing support over the past several years. The NNI took a 
fledgling but tremendously promising field and provided the resources 
to develop the basic science for giving that field a foundation for 
growth. That investment will pay off. Nanotechnology is now impacting 
industries ranging from information technology to health care, \1\ and 
that impact will dramatically increase over the next several years, 
with the U.S. in the lead in most areas.
    As I look into the future, I see several major scientific 
challenges that are looming, but at the head of that list is energy. 
Energy consumption is the only quantity that directly correlates to 
standard of living. The global consumption of energy is now in excess 
of the equivalent of 200 million barrels of oil per day (MBOE), and 
that demand will more than double by 2050. \1\ Where will all that 
energy come from? Fossil fuels will not meet this demand by themselves, 
and so alternative energy sources will have to be developed. The late 
Rick Smalley called this the ``TeraWatt Challenge'' (1 TeraWatt = 15 
MBOE), meaning that any pathway we take must ultimately yield large 
energy dividends. I personally believe that solar energy is the only 
viable, long term solution (175,000 TeraWatts of solar energy impinge 
upon the earth every day and we only need to collect .03 percent of 
that to solve this problem!), but it is not the only alternative. 
Regardless of which pathway or pathways we take, the fundamental 
scientific challenges behind collecting, storing, and distributing 
energy in usable forms are daunting. Scientifically speaking, there are 
no low apples on this tree. Even if Congress decided to act now, U.S. 
scientists and engineers are going to have their work cut out for them 
if they are to solve this problem in time.
---------------------------------------------------------------------------
    \1\ Supplementary materials: Part I--Science-to-Technology 
Pathways; Part II: Energy Consumption; Part III: Production of 
Scientists in U.S. and Asia.
---------------------------------------------------------------------------
    A second closely related challenge that we face involves getting 
our children engaged in science. The WWII and Sputnik generations of 
American scientists largely developed the information technologies and 
biomedical and chemical industries that provide for much of the U.S. 
economy today. The nanotech and biotech revolutions are, in large part, 
being developed by foreign-born scientists that immigrated to the U.S. 
for graduate school. Stan Williams, a leading nanotechnology researcher 
at Hewlett Packard, states that ``Everybody in my lab over 40 is U.S. 
born. Everybody under 40 is Asian born.'' China, in particular, has 
constructed several state-of-the-art research universities over the 
past several years, and they are currently producing many more 
scientists and engineers than we are. \1\<SUP>,</SUP>\2\ Asian 
countries, in general, are increasingly able to attract their own 
scientists back from the U.S. by providing them with exciting 
opportunities and significant resources. In addition, their need to 
meet the TeraWatt Challenge is becoming increasingly acute, and 
necessity is the mother of invention. If the U.S. is to maintain its 
competitive advantage as we move towards solving the scientific and 
engineering challenges of the 21st century, then we must take bold 
steps now to solve the underlying scientific and engineering 
challenges. We must also take strong steps towards encouraging and 
preparing our children to actively participate in developing this 
future by becoming the scientists and engineers who will make it 
happen.
---------------------------------------------------------------------------
    \2\ National Science Board, Science and Engineering Indicators 
(2002 and 2004).
---------------------------------------------------------------------------
Supplementary Material
    In this supplement I provide two examples of relatively modern 
discoveries, the development of which was aided by the National 
Nanotechnology Initiative (NNI), and which will lead to a variety of 
commercial applications within the next decade or so. The point of 
these examples is to illustrate that even today, with all of the 
scientific and technological infrastructure that is in place in the 
U.S., the timeline between initial discovery and initial commercial 
application remains around 15-20 years. Both of the examples provided, 
single-walled carbon nanotubes and semiconductor nanowires, constitute 
the enabling discovery that can support a number of technologies. As a 
result both classes of materials have also received significant 
attention and federal investment worldwide.
    As we move towards addressing the emerging problems of this 
century, it will be necessary for us to not only move boldly towards 
solving those problems, but to also stay the course and allow for the 
development of the critical scientific discoveries into viable 
technologies. With respect to the energy problem highlighted in my 
testimony, it is worth noting that many discoveries that have been 
supported by the NNI (including carbon nanotubes and nanowires) will 
likely play key roles in terms of developing the ultimate solutions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Single walled carbon nanotubes are currently being developed, 
within both academic and industrial settings, as:

  <bullet> lightweight electrical conductors (can impact the energy 
        problem)

  <bullet> integral components in video monitors

  <bullet> high speed, low power electronics devices

  <bullet> chemical sensors for applications in many arenas including 
        bioagent detection

  <bullet> lightweight, ultra-strong structural materials (e.g., kevlar 
        replacements).

    The second example, that of semiconductor nanowires, is also 
characterized by an equally broad and diverse set of applications. 
Depending on the application, these materials are currently being 
investigated in both academic and commercial settings. Applications 
include:

  <bullet> High-speed electronic and optical devices that work on 
        plastic substrates

  <bullet> Adhesives with an unusual and enabling combination of 
        properties

  <bullet> BioSensors within chip-based tools for the early diagnosis 
        of cancer and other diseases

  <bullet> Electronic circuitry that significantly extends the Moore's 
        Law scaling of electronic devices.

  <bullet> Ultra-efficient thermoelectric devices (refrigerators and 
        power-recovery devices) (can impact the energy problem)

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Selected References
Single-Walled Carbon Nanotubes
    H.W. Kroto, et al., ``C-60: Buckminsterfullerene, `` Nature 318, 
165 (1985).
    W. Kratschmer, et al., ``Solid C-60--A New Form of Carbon,`` 
Nature, 347, 354-358 (1990).
    D.S. Bethune, et al., `'Co-Catalyzed Growth of Carbon Nanotubes 
with Single-atomic-layer Walls,'' Nature, 363, 605-607 (2003).
    S. IIjima and I Ichihashi, ``Single-shell Carbon Nanotubes of 1-nm 
diameter,'' Nature, 363, 603 (1993).
    J. Kong, et al., ``Synthesis of individual single-walled carbon 
nanotubes on patterned silicon wafers,'' Nature, 395, 878 (1998).
    R.H. Baugham, et al., ``Carbon Nanotubes--The Route Toward 
Applications,'' Science, 297, 787-792 (2002).
    P. Avouris, ``Carbon Nanotube Electronics and Optoelectronics,'' 
MRS Bulletin, 29, 403-410 (2004).
    L.M. Ericson, et al., ``Macroscopic, neat single-walled carbon 
nanotubes fibers,'' Science, 305, 1447-1450 (2004).
Semiconductor Nanowires
    J.R. Heath and F.K. LeGoues, ``A liquid solution synthesis of 
single crystal germanium quantum wires,'' Chem. Phys. Lett., 208, 263 
(1993).
    A.M. Morales and C.M. Lieber, ``A Laser Ablation Method for the 
Synthesis of Crystalline Semiconductor Nanowires,'' Science, 279 208-
211 (1998).
    Y. Cui, et al., ``Nanowire nanosensors for highly sensitive and 
selective detection of biological and chemical species,'' Science, 293, 
1289-1292 (2001).
    J.F. Wang, et al., `'Highly polarized photoluminescence and 
photodetection from single InP nanowires,'' Science, 293, 1455-1457 
(2001).
    Xia, Y.N. et al., ``One-dimensional nanostructures: Synthesis, 
Characterization, and Applications,'' Advanced Materials, 15, 353-389 
(2003).
    Nicholas Melosh, et al., ``Ultrahigh density Nanowire Lattices and 
Circuits,'' Science, 300, 112 (2003).
    Leroy Hood, et al., ``After the Genome Project: Systems Biology and 
New Technologies Enable Predictive and Preventive Medicine,'' Science, 
306, 640-643.
    G.Y. Jung, et al., ``Nanowire Circuit Fabrication at 34 nm pitch by 
nanoimprint lithography,'' submitted 10/05.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you very much, Dr. Heath.
    Our last witness is Professor Samuel C.C. Ting, of the 
Massachusetts Institute of Technology.
    Dr. Ting?

   STATEMENT OF SAMUEL C.C. TING, Ph.D., THOMAS DUDLEY CABOT 
              PROFESSOR OF PHYSICS, MASSACHUSETTS 
                    INSTITUTE OF TECHNOLOGY

    Dr. Ting. Good morning, Senator Stevens, Senator 
Hutchison----
    The Chairman. Can you pull that even closer toward you? 
Doctor, please?
    Dr. Ting. I'm Samuel Ting, from MIT. I was born in 
Michigan, graduated from the University of Michigan.
    I've been doing experimental physics all my life, and have 
always led large international collaborations in accelerator 
laboratories in the United States and Europe and the Space 
Shuttle and, in the future, on the Space Station.
    When I first started, I worked in Hamburg, Germany. After 
that I returned to United States, and then worked in Hamburg 
again; and for 20 years, I worked in the largest accelerator in 
the world, the 16-mile circumference electron-positron 
collider, in Geneva Switzerland. In the last 10 years, I've 
been working closely with Johnson Space Center on the Space 
Shuttle and, in the future, on the Space Station.
    When I first started, my group had ten physicists. Now, 
there are 600. When I first started doing experiments, the 
experiment cost $100,000. In my two latest experiments, they 
each cost one billion dollars, involving 16 countries.
    What I would like to call to your attention is the 
importance of fundamental science on the International Space 
Station, a subject often not mentioned in the United States. 
Let me present, in a very simple way. In space, there are two 
types of cosmic rays: One type has no charge, light rays. Light 
rays have been studied by satellites, the Hubble Telescope is 
an example. Over the last 40 years, four Nobel Prizes have been 
given for the study of light rays. But, beside light rays, 
there are particles that carry a charge. No matter how large an 
accelerator you make, you can never make higher energy than the 
cosmos. To study the cosmos will probe the foundations of 
modern physics. For 10 years, I have led an experiment to put a 
magnetic device, like the ones appearing in accelerators, on 
the Space Station. The Space Station, because of its size and 
power, is the only way to do such an experiment.
    Senator Hutchison. Why is the Space Station the only place?
    Dr. Ting. Because it supports large weight and generates 
high power. Because it provides an enormous amount of electric 
power, and because it can stand the weight.
    So, working on this experiment with me, the 16--there are 
16 countries on this experiment. I think Senator Hutchison will 
be pleased to know in this experiment on the Space Station 
there are, in United States, the Johnson Space Center, MIT, 
Yale, and then nearly all the countries in Europe, Russia, 
China, Taiwan, and Korea. In total, there are 16 countries, 500 
physicists. In 10 years, a total of about $1.2 billion has been 
spent, mostly from European countries. And it's perhaps because 
of this, that this experiment is seldom known in the United 
States. But most of the cost is done by the Europeans.
    To do such an experiment, we have developed an enormous 
amount of new technology for exploration. The superconducting 
magnet is one, which provides a way to protect astronauts on 
their way to Mars and on the moon. A precision silicon detector 
is another. And these detectors provide unheard-of resolution 
to identify particles. And these are mostly done through a 
national effort in Switzerland and Italy. Now the experiment 
from the 16 countries is completed after some $1.2 billion, and 
now is being assembled in Europe.
    What is the physics? One of the physics is the search for 
the universe made out of antimatter. What is antimatter? You 
know there's an electron. If you go to the hospital, you have a 
PET scan, called positron tomography. The positron is the 
antimatter of the electron. If the universe has come from a Big 
Bang, before the Big Bang there was a vacuum. So right at 
beginning of a Big Bang, if there's matter, there must be 
antimatter to balance it off. Now the universe is 15 billion 
years old. Now we ask a simple question, Where is the universe 
made out of antimatter? If the universe comes from a Big Bang, 
there must be a universe made out of antimatter.
    The physics of antimatter probes the foundations of modern 
physics. And it is the main research topic for the next 
generation of accelerators worldwide. People discuss the Space 
Station. Very few people in the United States discuss how 
important it is for the Space Station to address the 
fundamental issues of science. Because no matter how much money 
is spent on Earth, you are never going to build a larger 
accelerator than what you could do on the Space Station.
    I have two things I would like to call to your attention. 
The first is the importance of U.S. participation in 
international collaborations. My last two experiments each cost 
more than a billion. So, the size and cost of modern physics 
experiments for accelerators and space make it mandatory to 
seek international collaboration. Rather than competing, it is 
much more efficient to collaborate together toward a common 
goal.
    My second observation is the importance of U.S. maintaining 
its international commitment. The cancellation of a project 
located in Waxahatchie, the superconducting supercollider, had 
a devastating effect on the U.S. science community, shifting 
the focus of particle physics research to Europe and Japan. By 
the end of the decade, more than half of the U.S. high-energy 
physicists will be working in Europe and Japan unless we make a 
effort to build the next accelerator in the United States.
    Another thing which is also ignored is the potential 
breakthrough in science by the next generation of space 
experiment that's managed by NASA, the JDEM, GLAST, and AMS 
must not become victims of expediency. These experiments are 
international collaborations led by United States physicists 
with major foreign support. It is important NASA be strongly 
supported to honor its international commitments and to 
maintain its credibility. But, most important, the Space 
Station is a visible symbol of American commitment to science 
and to international collaboration, and it is a vital part of 
our national legacy of exploration and excellence.
    And I thank you for your attention.
    [The prepared statement of Dr. Ting follows:]

  Prepared Statement of Samuel C.C. Ting, Ph.D., Thomas Dudley Cabot 
      Professor of Physics, Massachusetts Institute of Technology
    Mr. Chairman, Distinguished Members of the Committee, Ladies and 
Gentlemen:
    It is a privilege to address this distinguished gathering on the 
important issue of the future of science in the United States. I am an 
experimental high energy physicist. I was born in Michigan and received 
my university degrees at the University of Michigan. Throughout my 
career, I have led large international collaborations conducting 
experiments in accelerator laboratories in the United States and Europe 
as well as on the Space Shuttle. Currently, I am leading a large 
international team of 500 physicists from 16 countries who are 
completing an experiment to be deployed on the International Space 
Station (ISS). My research has always been supported by the U.S. 
Department of Energy (DOE), by M.I.T. and I have always received strong 
worldwide support (Finland, France, Germany, India, Italy, Korea, the 
Netherlands, Pakistan, Portugal, Peoples Republic of China, Russia, 
Spain, Switzerland, Taiwan . . . ). My testimony is based on my own 
experience and observations in large-scale particle physics research 
and large international collaborations.
    In the 21st century the United States is enjoying unprecedented 
levels of technological development such as in the fields of 
communication, computers, transportation, medicine, etc that have had 
dramatic effects on the quality of life. What is often forgotten is the 
fact that the foundation of these achievements was laid down some time 
ago by scientists who were driven by intellectual curiosity and not by 
economic concerns. History has taught us that support for basic 
research in science advances other areas of achievement in our society 
such as education and industry.
    The German physicist and philosopher Christopher Lichtenberg wrote 
in his diary 200 years ago:

        ``To invent a remedy against toothache which would take it away 
        in a moment might be more valuable than to discover another 
        planet . . . But I do not know how to start the diary of this 
        year with a more important topic than with the news of the new 
        planet.''

    It was the planet Uranus, discovered in 1781 and which was recently 
investigated more closely by the Voyager spacecraft. Even at that time, 
one was confronted with a problem which is as important today as 200 
years ago: should one build satellites to explore the universe, and 
accelerators to investigate the microcosm at a time when burning 
problems like energy production, disease and overpopulation, etc . . . 
trouble our society?
    The following graph illustrates the relationship between basic 
physics research and its direct application to daily life. The inner 
triangle shows the area of basic research in the 1900's covering the 
scale from atoms to planets. The shaded triangle shows the areas of 
basic research in the 1930s which extended the scale from the nucleus 
to stars and its applications derived from earlier research. The 
outermost triangle shows the area of basic research today. It covers 
the scale from the size of quarks to galaxies. The outermost triangle 
also includes some of the key technology developed based on results of 
previous research.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The above graph demonstrates how fundamental research has provided 
the basis for technology in the past. Fundamental research started from 
human dimensions to explore on one side larger objects, i.e., the 
universe with its planets, stars, galaxies, etc. and on the other side, 
it has penetrated into the microcosm discovering ever smaller building 
blocks of matter, i.e., atoms, atomic nuclei, protons and neutrons, 
quarks, etc. Out of classical physics came the steam engine, 
photography, electrical engineering, radio, TV, airplanes, etc. The 
atomic world and quantum physics, which was necessary to understand it, 
delivered many new materials like semiconductors and superconductors 
with their many applications, i.e., the transistor, neon lamps, lasers, 
microprocessors, computers, etc. The world of atomic nucleus gave rise 
to applications like the isotope technique in medicine, material 
testing and fission energy in nuclear reactors. One notices that in the 
past, the pyramid has grown with new applications increasing its height 
while fundamental research continuously widens its base. The role of 
basic research finds itself always on the outermost corners of the 
pyramid and hence is sometimes blamed for being too remote from daily 
life. Only after some time when applications grow and the public 
becomes acquainted with the strange new phenomena they seem to become 
more ``real.'' There is no reason that the pyramid should not continue 
to grow in the future and technological quantum jumps, fed by new 
discoveries, can be expected. Of course, the time it takes from the 
discovery of a new phenomenon to the introduction of its application 
into the market is still of the order of 20 to 40 years. Such a period 
is too long for many politicians and industrialists.
    But research does not continue in a straight line. Errors are an 
integral part of the effort when penetrating into unknown territory and 
predictions are difficult. Hence, basic research needs sufficient 
freedom and a long perspective.
    The prime motivation of basic research is human curiosity--the 
innate passion to learn something new, to ask questions and to obtain a 
deeper understanding of natural phenomena. Advancements in physics 
research are based on the close interaction between experiment and 
theory. Advancements in theory are based on the ability of theories to 
explain existing experimental results and to predict new phenomena to 
be confirmed by experiments. Revolutions in physics occur when an 
experimental result contradicts the theoretical prediction, which leads 
to the creation of a new theory or paradigm. There is no theory that 
can disprove an experimental result, whereas a theory, however logical 
and elegant, cannot be valid if it does not conform to experimental 
observations.
    Careful experimentation in physics conducted in the second half of 
the 20th century, such as the observation of CP violation in K decay, 
the discovery of the J/psi particle, the discovery that neutrinos have 
mass and the discovery of high temperature superconductors, have opened 
up new fields of research in physics. These observations were carried 
out by experiments even though there was no a priori theoretical 
interest.
    I began doing experiments measuring the size of the electron and 
studied the relationship between light rays and massive light rays. 
These experiments were carried out at the German National Accelerator 
(DESY). This was followed by an experiment at the Brookhaven National 
Laboratory leading to the discovery of a new form of matter. 
Subsequently, I returned to DESY to work on the highest energy electron 
positron collider, PETRA, leading to the discovery of gluons. In recent 
years I have led two international collaborations, one on the ground 
and one in space.

        1. From 1982 to 2003, I led a 19 country, 600 physicist 
        collaboration at the European Organization for Nuclear Research 
        (CERN) in Geneva, Switzerland. CERN's 16 mile circumference 
        Large Electron Positron Collider created conditions close to 
        those at the beginning of the universe. One of the purposes of 
        our experiment was to search for the origin of mass. Even 
        though the experiment was constructed at the height of the Cold 
        War, it was the first large collaboration between the USSR, 
        China, Europe and the United States and represented the largest 
        contribution from the USSR to an international collaboration in 
        physics research.

        2. From 1994 to the present, I have been leading the AMS 
        international collaboration building an experiment for 
        deployment on the International Space Station. AMS will use the 
        ISS as a unique orbiting laboratory to seek answers to the 
        fundamental questions of modern physics and cosmology.

    These two experiments are multi-billion dollar projects. Even 
though most of the financial and technical support came from outside 
the U.S., these experiments have been regarded by the world scientific 
community as U.S. DOE led experiments.
    The completion of the International Space Station, with its unique 
capability to support complex modern accelerator type experiments, will 
be a truly outstanding laboratory facility of which the United States 
should be very proud and utilize to its full extent. The ISS will 
provide a base to do experiments without hindrance from the dense Earth 
atmosphere and gravity. On Earth we live under 100km of air, which is 
equivalent to 30 feet of water, and this absorbs all the primordial 
charged particles and high energy gamma rays. The highest energy 
particles are produced in cosmic rays and it is through understanding 
the nature of primary charged cosmic rays that clues on the foundation 
of modern physics will be revealed such as the existence of the 
universe made out of antimatter, the origin of dark matter, and the 
existence of strangelets, etc.
    If the universe came from a ``Big Bang'', at the beginning there 
must have been equal amounts of matter and antimatter. The search for 
an explanation for the absence of antimatter is the main research topic 
of the current and next generation of particle accelerators world-wide. 
The existence of dark matter has been one of the mysteries of modern 
particle physics and cosmology--why so much of our universe is not 
observable. All matter on earth is made out of only two of the six 
known kinds of quarks. Strangelets are new types of matter composed of 
three types of quarks which should exist in the cosmos. These questions 
touch upon the foundations of modern physics and the AMS experiment 
will provide for the first time a most sensitive means to answer these 
questions.
    The AMS experiment is one of the largest international 
collaborations supporting fundamental science on the space station. 
Indeed, 95 percent of the $1.2B cost to build AMS has been funded by 
sources outside the U.S. It uses the technology developed in particle 
physics modified for space application. AMS uses a large 
superconducting magnet for the first time in space research. The 
purpose of the magnet is to distinguish matter from antimatter by 
observing positive or negative charges tracked in the magnetic field.
    As an important byproduct of the science to be produced by AMS, the 
experiment will also provide important applications for the U.S. space 
exploration program. These include precise mapping of cosmic ray 
radiation background as well as the use of superconducting magnet 
technology for propulsion, energy sources and to provide safe, light 
weight and complete radiation shielding for manned interplanetary space 
travel. Out of the 27,000 manned days spent in space, only 1 percent 
(303 manned days during the Apollo era) was spent outside the 
magnetosphere. This, together with the fact that our current knowledge 
of the nature of radiation from dangerous heavy ions is limited, makes 
the precision study of the nature of cosmic rays and their dependence 
on energy and time important input for future long distance human space 
travel or sustaining long periods on the moon.
    Current estimates by NASA indicate that without protection, 
astronauts will receive lethal doses of radiation on a three-year trip 
to Mars. Superconducting magnet technology offers the only effective 
way to protect astronauts from this hazard because of its capacity to 
deflect radiation away with its strong magnetic field.
    The following graph presents the AMS international collaboration.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    At the beginning of my career, experimental particle physics 
research was dominated by the United States. Very few American 
physicists worked in Europe. Gradually, with improved economic 
conditions, other countries realized the importance of supporting 
fundamental research and the benefits to science, education and 
technological growth inherent in such investments. The European 
Organization for Nuclear Research (CERN) in Geneva, Switzerland was 
founded when many European countries made the decision to pool their 
resources to build larger and more powerful accelerators and to provide 
technical infrastructure for their physicists. Later Germany and Japan 
built their own unique accelerator and research facilities. The 
cancellation of the U.S. Superconducting Supercollider project (SSC)--
mostly due to its own mismanagement--contributed significantly to the 
loss of U.S. dominance in the field forcing large numbers of U.S. 
physicists to go to Europe or Japan to conduct their research. Indeed, 
some of the most important discoveries in particle physics such as the 
discovery of the intermediate vector bosons, the discovery of gluon 
jets, the discovery of neutral currents, and the discovery that 
neutrinos have mass were all done at foreign facilities. All these 
major discoveries, though having had significant U.S. participation, 
are credited justifiably to European and Japanese laboratories and 
recognition given to the principal investigators. The only exception 
was the discovery of the gluon jet which was recognized as DOE/MIT 
discovery.
    The nature of experimental particle physics research has changed 
dramatically because of the limited availability of research facilities 
and the increasing complexity of experimental detectors. These changes 
are illustrated in the following:

        1. Teams have gone from a few physicists to presently thousands 
        of physicists from many countries per team.

        2. The cost of the experiments has increased from a few hundred 
        thousand dollars to billions of dollars.

        3. The time required to carry out the experiments has grown 
        from a few months to decades.

        4. More and more particle physicists are carrying out their 
        research in space, on the ground and in subterranean 
        laboratories. This is the result of the realization of the 
        close connection between particle physics, astrophysics and 
        cosmology. The brilliant LIGO project, the outstanding GLAST 
        and JDEM experiments, the AMS and Super Kamiokande are examples 
        of this trend.

    Contrary to accelerator physics on the ground, science in space, 
either with balloons, satellites or with ground based telescopes, is 
still led by the United States through NASA. Both the GLAST experiment 
and the JDEM experiment will provide critical knowledge on the nature 
of our universe.
    Despite the complexity of modern particle physics research, 
successful, large international collaborations are often proposed and 
lead by very few physicists whose vision, tenacity and understanding of 
physics make multinational collaborations possible. In addition, 
scientific recognition of major discoveries is commonly given to the 
laboratory at which the discovery was made. SLAC, Fermilab, Brookhaven, 
CERN and DESY are recognized as successful laboratories because so many 
major discoveries have been made in their facilities. In addition, even 
though modern groups may have thousands of physicists, a truly 
outstanding and dedicated young physicist will distinguish him or 
herself and be easily identified by the physics community. This is 
because the advancements in physics have always come from the efforts 
of a few people with unconventional ideas and not from public 
consensus. Indeed, one cannot vote on physics issues.
    Having worked in laboratories in Europe, the United States and in 
space, I have the following observations on how the U.S. can maintain 
its world leadership in science in the future. These include:

        1. The importance of U.S. participation in international 
        collaborations.

        The size and cost of modern physics experiments for 
        accelerators and space make it mandatory to seek international 
        collaboration. It is no longer possible or necessary for a 
        single country to have the best technology in every field--an 
        example is superconducting magnet technology. The world's best 
        superconducting magnet technology is now in Europe and Japan 
        and not in the U.S. In addition, the days of competing 
        experiments with similar goals is a luxury we can no longer 
        afford. Rather than competing, it is much more efficient to 
        collaborate together towards a common goal.

        2. The importance of the U.S. maintaining its international 
        commitments.

        In Europe when a research instrument, such as an accelerator or 
        spacecraft, is approved by a government or governments, it is 
        almost always carried out to a successful end. In the United 
        States, the cancellation of ISABELLE and the SSC had a 
        devastating effect on the world science community resulting in 
        close to 500 U.S. physicists presently working at CERN on the 
        Large Hadron Collider (LHC).

        3. Providing strong support to important U.S. led international 
        collaborations which connect particle physics, astrophysics and 
        cosmology, such as JDEM, GLAST and AMS.

        These large international collaborations are led scientifically 
        and technically by the U.S. These experiments have the 
        potential of making groundbreaking discoveries in physics. This 
        potential for major breakthroughs in science performed on the 
        ISS must not be underestimated nor become the victim of 
        expediency. The ISS is a visible symbol of American commitment 
        to science and international collaboration and is a vital part 
        of our national legacy of exploration and excellence. NASA 
        should be strongly supported to carry out its world class 
        experiments and to fulfill its commitments to our international 
        partners.

        4. The importance of ensuring that some of the future key 
        international projects, such as the next generation of 
        accelerators, be located in the U.S.

        The advancement of physics is not determined by the amount of 
        data taken and the number of papers published. The advancement 
        of physics is driven by unpredicted and fundamental 
        discoveries. The next generation accelerator will require 
        enormous amounts of technical development in instrumentation, 
        electronics, material, data storage and analysis as well as a 
        large team of engineers and scientists. The laboratories at 
        which discoveries are made traditionally are given the 
        recognition and credit. For the U.S. to regain its leadership 
        in particle physics it is important to ensure that the location 
        of the next generation of accelerators be in the United States.

        5. The importance of continuing strong support to basic 
        research in universities to train students and to attract the 
        world's best minds to work in the U.S.

        Most of the major discoveries in experimental particle physics 
        were not predicted at the time of the original justification to 
        build the accelerator was formulated but came about 
        unexpectedly and often in contradiction to prevailing theory or 
        public opinion. A glance of the Nobel Prizes awarded to 
        physicists will reveal that most of the prizes were given to 
        university professors. This is because universities grant 
        sufficient academic freedom to promote creativity and 
        originality. Today fewer students in the United States are 
        studying physics unlike our European and Asian counterparts. To 
        strengthen science education in primary and secondary school as 
        well as universities will enhance the numbers of students 
        studying science and will ensure a better informed public on 
        science issues.

    I thank you for your attention.

    The Chairman. That's staggering, really. I have in mind 
taking your speech and repeating it on the floor of the Senate 
one of these days, Dr. Ting. I'm really grateful to you for 
coming.
    This week, we have had a visit from the group that was 
working with Norman Augustine, who used to be the head of 
Lockheed Martin and is on the President's Council of Advisors 
on Science and Technology, and they have brought to us a report 
now that's being distributed to every Member of the Congress. I 
don't know if you're familiar with it. It's called ``Rising 
Above the Gathering Storm.'' It is a very important, I think, 
presentation, and calls upon Congress to respond to the same 
points that you are making here, only yours is more of a 
scientific approach; this is an approach to our basic 
inspiration to do something about the underlying problem of the 
education of our people. It points out, for instance, that we 
are in a very difficult situation with regard to our 
educational process, because, for instance, in China--in 2004, 
China graduated 500,000 engineers; India, 200,000; and America, 
70,000. And it has a whole series of presentations to us about 
the necessity to rekindle the support of the Federal Government 
for basic education for scientists.
    Of course, you go beyond that; and that is, basic support 
for scientists once they're trained. And I think that cause 
needs to be very highly articulated, also. The difficulty that 
we have is that we seem to be losing our willingness to support 
the educational process as we have in the past. And I think we 
will have to reassess our current approach to education if 
we're going to meet this challenge that they have given us. 
They've had two key challenges to us to deal with beginning a 
new approach to education from kindergarten to 12th grade, and 
then, beyond that, the concept of higher education to respond 
to our needs for the future.
    I don't know if you all have seen this report. If you 
haven't, we'll be glad to get it for you. But I'm very 
impressed with your presentation here.
    Can you tell us--and it's sort of obtuse, I guess, but, 
where do you get your financing for the research you're doing 
now?
    Dr. Agre?
    Dr. Agre. Our laboratory was entirely funded by the 
American taxpayer in the form of NIH grants. As a student, I 
was able to stay in a laboratory. After graduation, during my 
internship, support from U.S. taxpayers in the form of an NIH 
training grant. And most of my colleagues, the support is 
entirely from the U.S. taxpayers. And that includes most of the 
salaries of the individuals.
    The Chairman. Dr. Cornell?
    Dr. Cornell. Support in my lab comes mainly from the 
National Institute of Standards and Technology and from the 
National Science Foundation, and a small amount of seed money 
from a private citizen in the State of Colorado.
    The Chairman. Dr. Heath?
    Dr. Heath. I direct a cancer center that is aimed at 
translating nanotechnologies to clinical applications, and 
that's funded by the NCI, and I also get a significant amount 
of funding from the DOD, and about 10 percent from private 
enterprise.
    The Chairman. And Dr. Ting?
    Dr. Ting. I'm quite expensive.
    [Laughter.]
    Dr. Ting. Throughout my career, I have been supported by 
the United States Department of Energy, by MIT, and also by 
Johnson Space Center, but most of my support, the vast majority 
of my support, comes from Europe--from Germany, from 
Switzerland, from France, from Italy, from Russia--my 
experiment was the largest overseas investment from Russia--
from China, from Taiwan, from many, many countries, even 
through the foreigners--foreign countries provide the vast 
majority of support, because these experiments were proposed by 
me, executed by me, they are known as U.S. experiments.
    The Chairman. This report shows that the cost of one 
chemist or one engineer in the United States, as compared to 
other countries. A company can hire, for one chemist, five 
chemists in China; or 11 engineers in India for one engineer in 
the U.S. One of our problems is the level of our lifestyle and 
the level of our cost base. What's your answer to that? How can 
we compete, if that is the case, when these foreign people are 
currently turning out so many more engineers and scientists 
than we are? In effect, Dr. Ting, you're getting, as they would 
say, a bigger bang for the buck over there, aren't you? We have 
a problem of cost here at home, in competing, as well as the 
education of our people. Am I right?
    Dr. Ting. Yes. Senator, I can answer in the following way. 
Why this field of high-energy physics, which used to be totally 
dominated by the United States, and now it's dominated by 
Europe and Japan, it is because the research discoveries from 
this field often make a quantum jump in technology. A hundred 
years ago the focus of high-energy physics was the discovery of 
the electron. In the 1920s it was the atom. In the forties it 
was the nucleus. And these, even though at that time it was 
fundamental research, now have completely changed our lives. 
And it's because of that, countries like Germany, like Japan, 
like Switzerland, invest so much in this field. I think that's 
the way I can address this to you, sir.
    Dr. Cornell. Senator?
    The Chairman. Yes sir, Dr. Cornell.
    Dr. Cornell. Could I address that question?
    I think it's important to look historically. We used to do 
a lot of injection plastic molding here. Now it's done in the 
Philippines. And it's true that your basic unit of chemist is 
going to be cheaper in India than it is going to be here. I 
think the strategy we should adopt as a country has been what 
we've always done, which is to define the cutting edge to be 
ours. And we continue to have that, although in terms of raw 
chemists per dollar, it's cheaper in India, in terms of raw 
internationally leading chemists per dollar, we remain almost 
really the place to go, the place where Indians and Chinese and 
so on come if they want to get research education at the very, 
very highest end, it's still here in the United States. And 
that, I think, is where we preserve our lead in the high-
quality niche market of science, if you like.
    The Chairman. We also have figures from this study about 
the number of foreign students that are in our own 
universities. They are--the majority of them are from foreign 
countries and are returning to their countries now. In the 
past, there was an incentive to stay here. Now there seems to 
be an incentive for them to get their education here and go 
back to their countries, or other countries where there are 
centers of research, such as Dr. Ting has outlined. What would 
be your suggestions on how to deal with that, as far as 
Congress is concerned?
    Dr. Cornell. The international students who come here and 
then choose to remain represent a vast influx--injection of 
human capital into the United States. It's a marvelous 
resource. And we should do what we can to hold onto these 
people. And, in particular, I think we should avoid--we should 
make sure that they feel welcome here--avoid getting them 
tangled up in, for instance, INS red tape unnecessarily.
    The Chairman. You should all come and go fishing with us. 
Jim knows. I go from the esoteric to the sublime and talk about 
why we're sending all our money overseas for oil and natural 
gas and not having the development money that comes from those 
two by developing our own resources. We currently send out of 
our country more of our own gross national product for energy 
than any other nation in the world. And, as a consequence, our 
money goes over there, we have to sell our goods cheaper, we 
have to export our scientists. We don't have the economic base 
we used to have, because we refuse to develop energy here at 
home. Jim and I are going to have that conversation again this 
summer, I hope. But, sometime, we have to find a way to deal 
with it.
    Senator Hutchison?
    Senator Hutchison. Thank you very much, Mr. Chairman.
    As Chairman of the NASA part of our Committee, I can tell 
you that I am fighting so hard to keep the Space Station--fully 
finish the Space Station and make it a vehicle for scientific 
research. Today, right now, Michael Griffin tells me that the 
only research that they can afford to do in the NASA budget is 
directly related to living in space and the effects of space 
life on the body. That's basically what he's saying.
    Now, we're in the process of passing a new authorization 
bill for NASA, and in that bill we have introduced the concept 
of putting a national laboratory designation on the Space 
Station. The reason I did that is because I am trying to get 
money from other sources to assure that we don't eat our seed 
corn. You have made, Dr. Ting, the best speech I have ever 
heard on this subject, and I'm going to send it to Michael 
Griffin to--and Michael Griffin agrees with us, let me say--but 
what Michael Griffin is trying to do is save our space 
exploration project, the whole NASA program, and he is trying 
to put the shrinking dollars that he is getting into the areas 
that we must have. So, I'm not critical of him, but I am 
looking for creativity to assure that we don't shrink the Space 
Station and the scientific part of the NASA operation to the 
point that we might as well throw it away. Because if we're 
going to do it halfway, we will do nothing.
    So, I'm going to ask you a couple of questions.
    First, do you think the concept of a national laboratory 
designation, where we can get both private money and university 
money, in addition to NASA money, is a viable alternative for 
saving the Space Station for real scientific research? And--but 
let me just finish and--ask you to answer that, and then I have 
another line of questioning, if the Chairman will indulge.
    Dr. Ting. Thank you, Senator. I have worked for many years 
with NASA. It is a good organization, and I had a very good 
experience working with them. Exploration, of course, is very 
important. Like you said, once you spend close to $100 billion 
to build a Space Station, and if you don't use it--if you don't 
use its potential to make fundamental discoveries in science, 
it's--just like you said, it's a total waste. And so, to have a 
national laboratory, it's extremely important.
    I only want to submit to you, I know Europeans, Asians are 
very, very interested in working on the Space Station, so you 
may want to take this into consideration, to invite the 
Europeans, our allies from Europe, to work--even the French 
want to work on the Space Station. It's a fact that is seldom 
brought up in the United States. What is the fundamental 
science, in physical science, you can do? It's because you have 
left the atmosphere, and you have the highest-energy particles, 
and you can never produce a accelerator on the ground to create 
a condition of cosmos. It's a unique thing.
    Thank you, Senator.
    Senator Hutchison. Dr. Ting, let me just ask you, or anyone 
on the panel, do you have any other creative ideas about ways 
that we could promote that science research on the Space 
Station in the shrinking budget environment in which we find 
ourselves, other than, of course, increasing the money and 
making it a priority, which is what we will try to do, and my 
national lab proposal--but is there anything else that you 
would suggest?
    Dr. Ting. Well, if you allow me, Senator, money, of course, 
is important, but to let it be known, scientists from Europe, 
scientists from Asia, once they've made a proposal to carry out 
an experiment on the Space Station, and they are not under the 
threat, suddenly, their experiment will be canceled. The major 
difference between being in this field between Europe and the 
United States is the following. In Europe, once a satellite 
project is approved, it's normally carried to an end. In the 
United States, in accelerators and in space projects often, 
halfway through, they are canceled. The cancellation of SSC, of 
ISABELLE, which I mentioned, make the Europeans somewhat 
hesitant how to commit themselves to this.
    Senator Hutchison. First of all, I so appreciate what you 
said about--rather than competing, that, really, America should 
be into collaboration. For one thing, because science budgets 
are limited, probably, everywhere, and we can do better if we 
cooperate, it is my view that America will stay on top. We are 
on top. We can stay on top if we collaborate. I think if we go 
down into the ``we're only competitive'' trenches, that we will 
start losing. And I appreciate the point that you made about 
that, and I think we have to be the leader, and act like the 
leader, and continue to move forward with collaboration. We 
will grow from that, as well as others growing with us. So, I 
appreciate that, and I think it is appropriate, as we talk 
about the Space Station and how we make sure that it is 
worthwhile.
    Let me move to one other point, and then there are others 
here who want to speak, I'm sure.
    Talking about the superconductors--superconducting 
supercollider, I thought it was the biggest mistake Congress 
ever made. I never, ever thought that Congress would really go 
through with something that had started and was actually 
halfway there. And I think it was--it wasn't even penny-wise, 
much less pound-foolish. But you had said that you think we 
could still build the next generation of accelerator if we make 
that commitment. But you've also said that we have more energy 
sources in space for that type of experiment than you could 
ever reproduce on the ground. So, could we use the 
International Space Station as our accelerator substitute, 
since we did lose the SSC, and can we have the same kinds of 
discoveries and information from that in lieu of going for the 
next accelerator?
    Dr. Ting. Senator, you ask a very penetrating question. In 
space, you produce the highest-energy accelerator, but the 
intensity is low. And so, you need a very large detector. On 
the ground, you can shoot an electron and a positron, and let 
them collide. You make more of a selection. And so, you do a 
different type of physics. The United States Department of 
Energy has an intensive study to do the next-generation linear 
collider. It's 100 miles long, electrons and positrons collide. 
And, because of this, I don't know how to say it, but it's 
almost the same as the Space Station. I think it is extremely 
important there is this type of collider. Now it is a huge 
international competition, whether it's to be in Japan, whether 
it's going to be in Geneva, whether it's going to be in 
Hamburg. And I think, for the United States, it is very 
important that it be located in United States.
    Senator Hutchison. Mr. Chairman, could I just finish with 
one last question? And that is, what would be the timetable 
that we would have to set in place for America to compete for 
the next-generation of supercollider? And, also, when is it 
necessary to go beyond what is in Geneva?
    Dr. Ting. The one in Geneva will start operating in 2 
years. And the next-generation collider, because of 
technology--you have to develop an enormous amount of new 
technology--would be on the only order of 10 years, I would 
think.
    To address your first question, Senator, about the Space 
Station, nobody has measured accurately what is in space with 
charged particles, high-energy ones. And the Space Station will 
provide the first accurate measurement to probe what is out 
there. That is why it's so fascinating to so many Europeans and 
Asians working on this.
    Even though the experiment I present to you, the cost is 
$1.2 billion, mostly coming from Europe, but because it's done 
on the Space Station, was clear view--be viewed as a American 
experiment.
    Senator Hutchison. Thank you so much.
    Thank you, Mr. Chairman.
    The Chairman. Senator Smith?

              STATEMENT OF HON. GORDON H. SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Mr. Chairman. Thank you, 
gentlemen, for your contribution this morning.
    A number of us were recently privileged to go to a dinner 
in which U.S. competitiveness in the world was the subject of 
table conversation. One of the points made to us is that our 
immigration laws, frankly, make it difficult to recruit the 
best and brightest from around the world, and then, at the 
conclusion of the education of those who do still make it 
through the maze of laws appropriate to our current law, are 
forced back home right away.
    The suggestion was made to us that part of our outreach to 
the world ought to have a focus on science and math, where we 
are beginning to lag behind other countries, in terms of 
education and accomplishment. Is it your experience in 
academia, that if we change those laws to allow gifted people 
in science and math to come here, and then, instead of 
requiring their return, upon graduation, made a path to 
citizenship much more possible, even expedited, that that would 
help us to stem the current loss we are suffering in the 
scientific community?
    Any of you can answer.
    Dr. Heath. America, in terms of science, is still the land 
of opportunity. It's still the only place where--I mean, one 
reason why we do OK, even though we have a terrible K through 
12, is that, at any stage, someone can recover and decide 
they're going to become a scientist. And people from outside 
the country can come here and take an assistant-professor job, 
set up their own labs, at an age that is far younger than what 
happens in most Asian and European countries. And so, we have a 
very attractive palette that we can use to attract these folks.
    What's--in fact, if you look at most of the technologies 
that are being developed now, I would argue that it's exactly 
those scientists that have come from overseas, and come here, 
and taken advantage of the opportunity that we have, that are 
making those things happen. And we're beginning to see that 
reverse, because it's harder for people to come in, it's harder 
for people to stay. But if you made it easier, we would----
    Senator Smith. Would----
    Dr. Heath.--the benefit would be tremendous.
    Senator Smith.--would holding out expedited citizenship be 
an extra attraction?
    Dr. Heath. Oh, absolutely.
    Senator Smith. Any of you have a comment?
    Dr. Agre. I'd just like to agree with Dr. Heath and expand 
a little bit. I think when excellent scientists trained in the 
United States do return to their countries, it's not always a 
loss. We have a U.S.-trained individual, we have a friend for 
the rest of the career of that individual, a friend of the 
United States in Japan, in China, in Germany. So, I think to 
have a revolving door would be good. And I think the biggest 
problem with the decline in the entry--of scientists now are 
the recent problems, after 9/11, where we had scientists who 
would come here to work, and then they'd have to go back to 
their countries and have a visa recertified and wait 2 months 
for an interview in a hotel in Tokyo or someplace. So, I think 
it has been better in the past, but I think providing 
citizenship would be an excellent way of attracting wonderful 
people to the United States. And they're a very hardworking 
group.
    Dr. Cornell. I'd just like to echo that. I think that's a 
terrific idea.
    Senator Smith. And if we did that, in your experience, 
could you put a percentage on how many would stay, if they were 
permitted? Half of them? I mean, I----
    Dr. Agre. At least. At least.
    Senator Smith. I agree with the revolving door, but, on the 
other hand, if we're a melting pot--if we can make them 
Americans and they bring all the gray matter into our country, 
do we start reversing the curve and heading up again?
    Dr. Cornell. Yes, I'd say, again, half or more. I've seen 
trained--a German guy, citizenship didn't work out. It made me 
cry to think that he wanted to stay here. He would have been a 
boon to our economy. Just exactly the kind of person we'd like 
to have as future Americans.
    Dr. Heath. Just echoing that a little bit, I, myself, must 
get three or four postdoctoral applications a day from 
overseas. And so, we have a great filter. We can pick out the 
really singular people to come here. And if half of them stay, 
that's a big boon.
    Senator Smith. Well, Mr. Chairman, as our congressional 
focus turns to immigration in the new year, I really think this 
ought to be a component of the new immigration laws that this 
Committee ought to lead on, and insist upon being included, 
because I think it--you know, America has benefited from every 
race, every ethnicity from around the globe, and we have to 
leave that door open to the best and brightest from all over 
the world, for our future's sake.
    Thank you.
    The Chairman. I think our problem has to be to find a way 
so that we can attract the best and brightest--sorry about 
that.
    I think what Dr. Ting is telling us is that we ought to 
find a way to attract the best and the brightest to our 
country, and to insist on it still being a United States 
experiment, and that's what it is, because Dr. Ting heads it. 
There is the basic problem of financing, which is one that I'm 
too familiar with, having spent more than 8 years as Chairman 
of the Appropriations Committee. The amount of funds available 
for discretionary spending is declining every year. And I don't 
know any way to make science an entitlement. You know, we have 
entitlements which automatically come out of the treasury, 
others that are discretionary money. The competition of that--
those funds increases drastically each year.
    But I, again, want to thank you very much. I, again, 
apologize for the timeframe. We thought this would be the 
nicest day, because we would be in a quiet session and have 
everybody just waiting for the continuing resolution to come 
over, and would be pleased to have a chance to listen to you 
gentlemen tell us about the role of your institutions and your 
background and meeting some of these basic problems we face. 
But I do intend to put your statements in the Congressional 
Record. And I also intend to ask you, Dr. Ting, if you'd give 
me a printout of that--I've never done it before, but I think 
I'll give your statement on the floor, in full. I can't take 
these PowerPoints on the floor, but I can take printed charts 
to emphasize your points.
    Dr. Ting. It would be an honor for me to do so.
    The Chairman. Very interesting.
    And, Dr. Heath, Jim, I thank you very much for the 
suggestion that you could put together a group to come in and 
really give us some reason to be more interested in what you're 
doing. And I appreciate very much your effort.
    And, Dr. Agre, Dr. Cornell, Dr. Ting, we're grateful to you 
for taking the time. We'll see what we can do to fund some 
initiatives that might bring you back to help support those 
initiatives. And I'll keep in touch with you about it.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. Can I ask a question?
    The Chairman. You certainly may. I didn't know whether you 
just came to listen or talk.
    Senator Burns. Well, we all just get through life taking up 
space. I'm one of those.
    The Chairman. Hit the button.
    Senator Burns. My button's already hit.
    I chaired Science and Technology and NASA, on this 
Committee, and it was very enlightening to me of what's going 
on in our world. And when Senator Smith mentioned the 
attraction this country has to people who want to do research-
and-development work, and also to come and to learn and then go 
back home, I go back a little bit on my background. I'm no 
tower of mental strength, I will tell you that. And my father 
was a small farmer in the State of Missouri. And he was born in 
1906, died in 1992, at the age of 86. He was convinced that he 
had lived the greatest span of years of the planet. Even though 
he was a small farmer, he said, ``We have gone from horseback 
to the moon in my span of years. And we had the technology, and 
we all got to watch it happen, the conclusion of when we walked 
on the moon.'' That's always had a lasting impression on me, as 
just how great a free society can be, when you allow the 
freedom to experiment, to probe the unknown, and the gain of 
knowledge.
    We operate around here with a single-bitted ax, and 
whenever we let those who have great talent to do R&D here, and 
then force them to go home, we are only using one bit of the 
ax, but it cuts both ways. If they decide they want to go home 
and do their work, that's a wonderful thing; we have a friend 
there, and his work continues, and we continue to be a society 
that gains from that. If they choose to stay here and do their 
work, we are doubly blessed by this talent. And I am like 
Senator Smith, that we should look very seriously on how we 
look upon this community. When we start doing our work that 
goes way beyond--I know we were--the supercollider, I was here 
when that all started--Dr. Ting probably remembers that--and 
very supportive of the idea. And we had a place in Montana for 
you all to come and work, all set aside for that. When it 
didn't happen, I was very sad about that. I, like the Chairman 
here, appreciate your spending some time with this Committee--
and I'm sorry I didn't make it up until just a little while 
ago, because I have a very deep interest in this, because I, 
more or less, deal with our research in how do we feed and 
clothe all the people that inhabit this Earth. And we, in 
America, we have a great ability to produce. And even when it 
filters down to my little Montana State University, where we do 
a lot of work in those lines, what you do gives us the platform 
of which we can really take that science, that work, and apply 
it to everyday life for all of us, and all of us gain from that 
work. And that's the way I make that link. I think Montana 
State probably ranks in the top schools of attraction of grants 
and money. We do, in R&D. And most of it has to do with how we 
feed and clothe ourselves, the production of food and fiber.
    And so, I just want to thank you for coming up and sharing 
your thoughts with us. We need to do more of this. We don't do 
enough on the street, so to speak, but I'm kind of an on-the-
street kind of a guy. I started out in a cow camp a long time 
ago, making $135 a month and sleeping on the ground. We 
gathered cattle late one year, and it snowed on us, and you 
roll out in the morning, out of that bedroll, and shake the 
snow off and put that old hat back on, climb back in the saddle 
for another day's ride. And all at once that romance of cowboy 
left me.
    [Laughter.]
    Senator Burns. And so, I just want to express my 
appreciation here this morning, for sharing your thoughts and 
the material that you leave behind. And I thank you for your 
work, because you've given us a real platform, a real launching 
pad, of which we take what you do and apply it to the benefit 
of everybody who lives on the planet.
    Thank you very much. And thank you.
    The Chairman. Thank you all very much. We have a vote going 
on right now, so we're going to have to recess. And I had hoped 
that other Senators might come before we're through, but, with 
this vote--the start of a vote, that will not be the case.
    I do want to make a personal invitation to you, when we're 
off the record here. But I--again, I do thank you, again, for 
coming and for your testimony. All of your statements will be 
printed in the record in full. And I look forward to getting a 
copy from Dr. Ting.
    Thank you all very much.
    [Whereupon, at 11:35 a.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Mr. Chairman, I want to begin by wishing you a happy birthday. 
We've known each other for many years and I am happy to say that you're 
looking better than ever.
    I also want to thank you for calling this hearing. You have brought 
together a remarkable panel of scientists.
    Science is an important subject. The pursuit of science and 
expanding the boundaries of human knowledge is a hallmark of mankind.
    Science is the basis of technological innovation and technological 
innovation is a primary driver of economic growth and prosperity. In 
turn, if we are successful, our quality of life improves.
    Today, we are facing a real problem and one that will affect the 
future of this country. Right now, the United States is not graduating 
as many scientists and engineers as other countries around the world.
    Our Committee jurisdiction ranges from the bottom of the ocean to 
distant galaxies. Science plays a role in almost everything we deal 
with--whether it is the safety of a plane or car, our energy sources, 
the need to make advancements in security or how we reach the stars.
    But we also have a responsibility to the next generation. We need 
to find a way to inspire our young people and get them engaged in 
science and math. We need to increase the number of science and 
engineering graduates so that this country can continue to come up with 
next great idea, develop the next great product, and discover the next 
great medicine that will save lives. Every bill that this Committee 
writes should have this objective in mind.
    This country has a long history of producing great things, all of 
which were based on a strong commitment to funding basic research. The 
Army funded the discovery of the transistor. The Internet was invented 
by the Department of Defense. Research funded by the National 
Institutes of Health is producing life-saving drugs.
    But over the past few years, this commitment to science has 
faltered. Although Congress supported doubling of funds for the 
National Science Foundation, this investment has not materialized. We 
need to reaffirm this commitment and ensure that scientific research in 
the United States gets back on track.
    Today, we have convened a panel of experts to share their views and 
visions for the future of science in our country. We need to learn from 
you and get your input on how best to reinvigorate our national 
commitment to science.
    Mr. Chairman, again, happy birthday. We will both learn from our 
experts today a great deal that we can pass on to future generations 
through our legislative efforts.

                                  <all>

</pre></body></html>
